   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106

October 3, 2011

Report Number: A-07-11-00350

Mr. Jeff Leber
Chief Financial Officer
Blue Cross Blue Shield of Mississippi
3545 Lakeland Drive
Flowood, MS 39232-9799

Dear Mr. Leber:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Mississippi for Fiscal Years 1997 Through 2009.
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00350
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Jeff Leber


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


REVIEW OF PENSION COSTS CLAIMED
FOR MEDICARE REIMBURSEMENT BY
   BLUE CROSS BLUE SHIELD OF
  MISSISSIPPI FOR FISCAL YEARS
      1997 THROUGH 2009




                         Daniel R. Levinson
                          Inspector General

                           October 2011
                           A-07-11-00350
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Mississippi (BCBS Mississippi), through its wholly owned subsidiary
TriSpan Health Services, Inc., administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective September 30, 2009.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards, and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that BCBS Mississippi claimed
for Medicare reimbursement for fiscal years (FYs) 1997 through 2009.

SUMMARY OF FINDING

BCBS Mississippi claimed $518,235 of unallowable pension costs for Medicare reimbursement
for FYs 1997 through 2009. The overclaim occurred because BCBS Mississippi based its claim
on incorrectly computed CAS pension costs. BCBS Mississippi claimed pension costs of
$12,581,894 for Medicare reimbursement; however, we determined that the allowable CAS
pension costs were $12,063,659, a difference of $518,235.

RECOMMENDATION

We recommend that BCBS Mississippi decrease its Final Administrative Cost Proposal pension
costs by $518,235 or refund this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Mississippi concurred with our finding and
described corrective action that it planned to implement in conjunction with its final contract
settlement proposal to CMS. BCBS Mississippi’s comments are included in their entirety as
Appendix B.




                                                 i
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Mississippi................................................................ 1
              Medicare Reimbursement of Pension Costs ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 1
               Objective ............................................................................................................. 1
               Scope ................................................................................................................... 1
               Methodology ....................................................................................................... 2

FINDING AND RECOMMENDATION ................................................................................ 2

          FEDERAL REQUIREMENTS ....................................................................................... 2

          UNALLOWABLE PENSION COSTS CLAIMED ....................................................... 3

          RECOMMENDATION .................................................................................................. 4

          AUDITEE COMMENTS................................................................................................4

APPENDIXES

          A: ALLOWABLE MEDICARE PENSION COSTS FOR
             BLUE CROSS BLUE SHIELD OF MISSISSIPPI
             FOR FISCAL YEARS 1997 THROUGH 2009

          B: AUDITEE COMMENTS




                                                                     ii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Mississippi

Blue Cross Blue Shield of Mississippi (BCBS Mississippi), through its wholly owned subsidiary
TriSpan Health Services, Inc., administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective September 30, 2009.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that BCBS Mississippi claimed
for Medicare reimbursement for FYs 1997 through 2009.

Scope

We reviewed $12,581,894 of pension costs that BCBS Mississippi claimed for Medicare
reimbursement on its Final Administrative Cost Proposals (FACP) for FYs 1997 through 2009.
Achieving our objective did not require that we review BCBS Mississippi’s overall internal
control structure. However, we reviewed the internal controls related to the pension costs
claimed for Medicare reimbursement to ensure that the pension costs were allocable in
accordance with the CAS and allowable in accordance with the FAR.

We performed fieldwork at BCBS Mississippi’s office in Flowood, Mississippi, during
October 2010.




                                               1
Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed information provided by BCBS Mississippi to identify the amount of pension costs
claimed for Medicare reimbursement for FYs 1997 through 2009. We also determined the extent
to which BCBS Mississippi funded CAS pension costs with contributions to the pension trust
fund and accumulated prepayment credits. We based our calculations on separately computed
CAS pension costs for the Medicare segment and the “Other” segment. The CMS Office of the
Actuary calculated the allocable pension costs based on the CAS and on the results of our
segmentation review (Review of the Qualified Pension Plan at Blue Cross Blue Shield of
Mississippi, A Terminated Medicare Contractor, for the Period January 1, 1996, to
September 30, 2009, A-07-11-00349).

In performing our review, we used information that BCBS Mississippi’s actuarial consulting
firms provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined BCBS Mississippi’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

BCBS Mississippi claimed $518,235 of unallowable pension costs for Medicare reimbursement
for FYs 1997 through 2009. The overclaim occurred because BCBS Mississippi based its claim
on incorrectly computed CAS pension costs. BCBS Mississippi claimed pension costs of
$12,581,894 for Medicare reimbursement; however, we determined that the allowable CAS
pension costs were $12,063,659, a difference of $518,235.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.



                                                2
CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

BCBS Mississippi claimed $518,235 of pension costs that were not allowable for Medicare
reimbursement. During FYs 1997 through 2009, BCBS Mississippi claimed pension costs of
$12,581,894 for Medicare reimbursement. We calculated the allowable pension costs based on
separately computed CAS pension costs for the Medicare segment and the “Other” segment in
accordance with CAS 412 and 413. We determined that the allowable CAS pension costs for
FYs 1997 through 2009 were $12,063,659.

The table below compares allowable CAS pension costs with the pension costs claimed on
BCBS Mississippi’s accounting documents. Appendix A contains additional details on
allowable pension costs.

            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                    Medicare Pension Costs
                                                     Claimed by
                                    Allowable          BCBS
                     Plan Year      Per Audit        Mississippi   Difference
                        1997           477,580           513,280      (35,700)
                        1998           392,732           480,041      (87,309)
                        1999           383,471           450,846      (67,375)
                        2000           433,017           515,469      (82,452)
                        2001           547,149           659,572    (112,423)
                        2002           693,624           848,152    (154,528)
                        2003         1,011,359         1,052,389      (41,030)
                        2004         1,142,325         1,155,786      (13,461)
                        2005         1,357,805         1,377,171      (19,366)
                        2006         1,401,693         1,410,730        (9,037)
                        2007         1,284,832         1,342,857      (58,025)
                        2008         1,364,560         1,435,677      (71,117)
                        2009         1,573,512         1,339,924       233,588
                       Total       $12,063,659       $12,581,894   ($518,235)

The Medicare contracts require BCBS Mississippi to calculate pension costs for Medicare
reimbursement pursuant to CAS 412 and 413. BCBS Mississippi based its claim for Medicare
reimbursement on CAS pension costs. However, due to incorrect pension cost computations,
those CAS pension costs were overstated. As a result, BCBS Mississippi claimed pension costs
in excess of allowable CAS pension costs of $518,235.




                                                 3
RECOMMENDATION

We recommend that BCBS Mississippi decrease its FACP pension costs by $518,235 or refund
this amount to CMS.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Mississippi concurred with our finding and
described corrective action that it planned to implement in conjunction with its final contract
settlement proposal to CMS.

BCBS Mississippi’s comments are included in their entirety as Appendix B.




                                                 4
APPENDIXES
                                                                                                                                                                    Page I of6




                                                           APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR 

                                                                  BLUE CROSS BLUE SHIELD OF MISSISSIPPI 

                                                                   FOR FISCAL YEARS 1997 THROUGH 2009 


                                                                                    Total                "Other"                Medicare                  Total
      Date                                         Descri tion                     Company               Segment                Segment                  Medicare

      1996                 Allocable Pension Cost                                               ~   i'   $1,427,488'~'-            $392,821
                                                                                                .t.
     1997               Contributions
    8.50%               Discount for Interest
January 1,1997         ;Pres~~t V~i~~C~ntributi~~s
                           P~llpaYl1\entCreditApplied
                      .. f'resent.Yll11le ofFunding .

January I, 1997       'CAS Funding Target                                                                $1,712,460                $402,908
                        Percelltage Funde.d                                                                                         100,00%
                        Funded Pension Cost
                        Allowable Interest
                                                                                                                                   $402,90~
                                                                                                                                         $0       +
                        Allocable Pension Cost                                                                                     $402,908
      1997            · Fiscal Year Pension Cost                                                                                   $400,386
                      · M..eAi(;~Il_J,.OB* !,~~(;<:,/l!_age                                                     5.45%                96.94%
                                                                                                                                                    i
                           Allowable Pension Cost                                                           $89,446~               $388,134                     $477,580

     1998              •Contributions                                                                                                       $0
    9.00%               Discount for Interest                                                                                               $0
Januwyl.!...l?98        Present Value Contributions                                                                                       .-~
                       "Prep~~~tCr~~;i~ifIiii~cI                                                                                   $321,569
                           Present Value ofFunding                                                                                 $}21,569

JanullfY.1..!..1998    .~J\~~lIndingTar.£et
                           Peri:<:ntage.Funded
                                                                              r:   $1&71,443    ,+.$I';~ri:~~t.                    $~~~:~~~'-i
                           Funded Pension Cost                                                      --~$1-,5~4~9,~87~4~~~$~32~1~,5~69~
                           Allowable Interest                                                                       $0                      $0
                           Allocable Pension Cost
      1998             o
                           Fiscal Year Pension Cost
                                             ~_"   " ...



                           Medicare L013* Percentage

                           Allowable Pension Cost                                                                                                               $392732

     1999         Contributions                                                                                                          $0
    9. OO%'~'~':pi;~~~nt~ii~t~rest                                                                                                       $0
January I, 1999 Present Value Contributions                                         $802,752                                             $0
                  PrepllYl1\ent Credit Applied
                 'Pr.<:~~~"yallleof~!I,/l~ill.s
                                                                              i
                                                                              .
                                                                                   $1,981,524
                                                                                   $2,784,276
                                                                                                .1                                 $344,094
                                                                                                                                   $344,22.~·t
                                                                              r-~""                 !
January 1, 1999       ,CAS FundingTarget                                           $1,981,524         $1,637,430                       $344,094
                       Percentage Funded                                                                  100.00%                       100.00%
                       Funded Pension Cost
                       ~   ,   ,   _,<H~"~             _"'~~_._~,
                                                                                                   ,  $1,637,430
                                                                                                .'--I-'~"'-" ..........." ....., .. 
 $344,22~~ __ .1.
                       Allowable Interest                                                          I               $0                        $0 i
                       Allocable Pension Cost                                                                                          $344,094 

      1999             Fiscal Year Pension Cost 
                                                                                     $338,463
                      _.~edicare ..L.Q~.*-. Percentage,.                                                                                 98.31%
                                                                                                                                                    I
                           Allowable Pension Cost                                                                                '$332,7431
                                                                                                                                                                                                                   Page 2 Df6




                                                                                                               Total                                "Other"                        Medicare              Total
      Date                                                            Description                        Company                                    Segment                        Segment              Medicare
      2000              CDntributiDns                                                                     $2.112.054                             ~,II2.0~4 . ........LJ.O.
     9.00%              DiscDunt fDr Interest                                               .·i-.···_·-".($::.;·Ic.:,·7.:..zr..:o.:
                                                                                                                               58;::::2L)·_-="($:.,;1-':-71;.-".5:..:83­2)'---'..1_ _ _.=:.$O=--t····
 January 1.2000         Present Value CDntributiDns                                              ·$1.?40,472                                        ~1.940,4?2                            $0
                        Prepayment Credit Applied                                                         $2.232,435                                $1.831.419                      $401.016
                  ._..• Pr~.~t.v~~~_or.£..':!Il.di.':l.£...

 January 1.2000. 	 CP~~Fun~ing ora!get                                                                                                                                   $401.016
                                                                                                                                                                       ...........................!.
                   Percelltage Funded                                                                                                 100.00%                            100.00% i
                   Funded PensiDn Cost                                                                                    . .-t ...$1.~1,4I2                            $401.016
                                                                                                                                                                              "'$0'-"1_.. 

                              ,   ••   ~""''''''         e .. """"_ , ..__ ~~.,.


                   Allowable Interest
                          "     -------........
                                  '.~              ~-,-'                        -~

                                                                                                                                           $0
                   Allocable Pension Cost                                                                                         $1,831.419                         . $401.016 

      2000         Fiscal Year Pension CDst                                                                                        $1.782.?22                          $386.786 

                 .Medic.areLO!3* Per<.:entage                                                                                           2.76% 


                      Allowable Pension Cost                                                                                        .. "'$49,209                                                               $433,017

      2001           .Contributions                                                                                                 $8.100,000
     9.00%            Discount for Interest                                                                                          ($595.640)
.January) ,2001       Present Value Contributions                                                  $2.?04.360                    .. $7 2.04,3~O.                             $0
                   ... ·Pr~p~~e.ntCreditAppli~d                                                    $2,962.845                       $2,434.312                         $528,533
                        PresentValue .of Funding                                                  $ 10.467,205                      $9.9J8,672                         $528.533
                                                                                                                                                                                                ;
January 1,2001        CASFllnding,Target.                                                                                         . $2,.4J4. 3 ~.                       $5~~,533                I

                     .Per<:~ntag~I'und~d                                                                                                100.00%                           100.00%
                      Funded Pension Cost                                                                                           $2.434.31~                           $528.533
                      Allowable Interest                                                                                                      $0                                $0
                      Allocable Pension Cost
                                        ~   , ,     "'     .~"'~.           "         ,-"
                                                                                                                                 .. $2•.4J4.31~._                    .. $528.533. i
      2001            Fiscal Year Pension Cost                                                                                     . E,~~~l.~~.?                       . ~4.9.M.?4.
                      Med icarel,() B *})ercenta.se                                                                                        2.37%                            99.27% i

                      Allowable PensiDn CDst                                                                                              $54.121                      $493,028                                $547,149

      2002            CDntributions
     9.00%            Discount for Interest
 January 1.~002       Present Value CDntributions                                                 ~13.5~5.695                     ~1},56?695                                 $0
                      Prepayment CreditApplied                                                       $3,901,506                     $3.240,305                         $661,201
               ...... Pr~l1t yalueo,!£"u.l1.d.!!!&

 Januaryl.~002       .	CA~Fun~illg Ta.rget                                                          ~3.?01,506 ....
                      Percentage Funded
                       Funded Pension Cost
                        ~,---~~           .         .~       ~   	    ---.-,."~




                     .Allowable Interest 

                      Allocable Pension CDst 
                                                                                      ~3.240,305
      2002 	           Fiscal Year Pension CDst 
                                                                                   $3.038,807
                      Me~care!::()B~~rcel1~ge ........ . 
                                                                               2.27%                              99.46%

                      Allowable Pension Cost 	                                                                                                                                                                $693.624
                                                                                                                                                                                                                    Page 3 of6




                                                                                                                                                                                                        Total 

       Date                                                     Descri don                                                                                                                             Medicare 


     2003 
        Contributions                                                                                                             , QO,~_._                             JQ       r
    8,50% 
     ' :I5i~;;;'~~t f~!' IJlterest                                                                                              {$949, 14I l           $0 

January 1,2003 
 Present Value Contributions                                                                                             $1!,35Q,859              $0 

                   Prep.ayment, £r:.e~Jt Applied                                                                                          $4,986,161     $1,022,500 

                  ,Presel1t V,allle.°fFullding                                                                                           $1(>,331,O2()  .~l ,02~,5()0

January I, 2003        CAS Funding Target 
                                                              $6,008,661.                         $4,986,161 
                 $1,022,500 

                       Percentagel'unded_ 
                                                                                                     100,00% 
                    100,00% 

                       Funded Pension Cost 
                                                                                                 $4,?§6,I61, 
                $1,022,500 

                       Allowable Interest 
                                                                                                           $0 
                        $0 

                       Allocable Pension Cost 
                                                                                              $4,986,161 
                 $1,022,500 

       2003 
          Fiscal Year Pension Cost 
                                                                                            $4,54?,6?7 
                   $932,1J?
                      iMedicareWS.o Perce~tage                                                                                                    2.31%                       97,22%

                       Allowable Pension Cost                                                                                                   $105,098                    $906,261                         $1,011 359

    2004 
       Contri butions                                                                           $5,700,000        $5,700,000 
                                          $0 

    8.50% 
      Discount for Interest                                                                     {$446,544 2       {$446,544 l 
                                        $0 

JanuaryI, 2004 
 Present Value Contributions                                                           , ,~?,253,45~ __ j   $5,2.?},4, ?~ 
                                       $0 

                 Prepayment Credit Applied                                                                $6,310,615        $5d38,074                                     $1,072,541 

                 Present Value, of FUl!ding                                                              $II,5(i,4,071    $IQ,.<I91 ,530                                  $1,072,541 

                                                                                                                                   -1'
                                                                                                                                         ,   .~·"o,,~,",O<,~,~   ••


Jllnuary I, ~()04       CAS Ful1dil1g.I<l!ge.t                                                           ~~.!.~)Q,615 ~- ..~ $5,238,0.,,<1_
                      i Percentage Funded 
                                                                                                     100,00%
                        Funded Pension Cost 
                                                                                                $5,238,074
                        Allowable
                           ""_"
                                   Interest 

                                  ____     "~'A.        ._"_'_'_'U_~~._
                                                                                                                                                     $0
                        Allocable Pension Cost     '"     •       ·•__ A.""        '" ''''
                                                                                                                                             ~?,f38,074               ,
       2004 
           Fiscal Year Pension Cost                                                                                             $5,175,096
                        Medicare LOS· Percentage                                                                                                  2,26%
                                                                                                                                         M'A,



                       Allowable Pension Cost
                                     ,     A_,"'" """._        . ___ . • ',••• ',A, "_,
                                                                                                                                                $\16;957                   $1(25)68                          $1,142325

        2005 
        Contributions 
                                                                  $IJ,075,00() 
                    $11.075,000                               $0
       8,00% 
        Discount for Interest 

                      o. ,,_ ..___   ~"'   ,.,   _~.,,,_~     _______ 4_._   ~~A   ._~       ___   ~
                                                                                                         {$792,396) 
                      ($792,396)                              $0
J <ll1uary I, 2005 
 Present Value..Contributions
                                      ___._A'.· ,,"",",.. _                                            $10,282,604 
                     $IQ,f82 ,6,Q.4.                          $()     .• - j . ­


                     ,Prepayment Credit Applied 
                                                       $7,402,091 
                      $6,119,106                       $ld82,985 

                      Present Value ofFunding 
                                                        $17,684,69? 
                     $16,401,7IQ                       $1,282,985 

                                                                                                          "'''''__   ~_~   ._"A,

January I, 2005 
 CAS FundingTargll~ 
                                                                   $7,4022 09 1                                                     $I,282,985~.
                  Percentage Funded 
                                                                                                                                        100,00% 

                  Funded Pension Cost 
                                                                                                                                   $1,282,985 

                  Allowable
                     . -     Interest
                          -",.,,, - ,
                                      
                                                                                                                                           $0 

                  Allocable Pension Cost                                                                                                                                  .$I~!2?985
     2005 
       Fiscal Year Pension Cost                                                                                                                                $1,230,374 

                  Medicare LOB· Percentage                                                                                                             2,64%                  97,70% 

                                                                                                                                    ;"
                       Allowable
                           --""
                                 Pension
                                      . Cost
                                                                                                                                                $155,736                                                     $1,357,805   :
                                                                                                                                                                                                  Page 4 of6




      Date                                                                Descri tion                             Total                "Other"                                       Total

     2006           Contributions                                                                               $10,500,000 !, $10,500,000                         $0
    8,00%           Discount for Interest                                                                         ($775,444)      ($775,444)                       $0
1anuary I, 2006     Present Value Contributions               A     ,_      A               _       A"~   A
                                                                                                                 ~9,724!55l', j,~?,724,556,;                       $0
                    Prepaymerltc;redit ~pp~il:d,                                                                 $7,490,806 ' $6,253,794                   $1,237,012
                    Present Value of Funding                                                                    $17,215,362     $15,978,350                $1,237,012

January 1, 2006      CAS Funding Target                                                                          $7,49Q&Qt>,       .   ,,!6,!~.?'!,J14,.,~.,' $1,237,012    1
                    ,Pe~centageFu~ded                                                                                                  J00,00%'" ioo,'oo%~t
                     Funded Pension Cost                                                                                            $6,253,794  $1,237,012
                     Allowable Interest                                                                                                     $0          $0
                     AII~cable Pension Cost                                                                                     ;~6,~'?'3.!J94  $1,237,012 .
                                                                                                                               .' , ~~~2(),122~1,f18:5Q{'T
                         ,    '~A'A                               ~'-<"A




      2006           Fiscal Year Pension Cost                                                                                                                                    

                    ,.¥.ed.icare LOB* Percentage:                                                                                        2,80%      98.32% 


                     Allowable Pension Cost                                                                                              $174163           $1,227530                     $1,401

     2007            Contributions                                                                               $4,600,000       $4,600,000                       $0
    8,00%            Discount for Interest                                                                        ($338,628).      ($338,628)                      $0
January 1,2007       Present Value Contributions     "            ~'A~      ._,_""
                                                                                                              +J~,~61,317      i,J9§1,372                          $0
                     Prepllymellt c;reditApplied                                                                 $7,493,695       $6,340,548               $1,153,147
                    •Present ValueofFunding                                                                     $1l,755,067      $1O,601,92Q               $1,153,147

JllI1 uaryl, 2007    CJ\~FundJ!!s;,I!I!gl:t"                                                                                       ",!~,}40,51~          ,.,E,.I,~}",li7
                    ,Per,<:<:ntageFunded                                                                                                100.00"10              100,00%
                     Funded Pension Cost                                                                                             $§,340,548            $1,153,147
                     Allowable Interest                                                                                                       $0                     $0
                    :Allocable Pension Cost         AA    ' ___ A        A __ A _____ ~_.~_~"




      2007           Fiscal Year Pension Cost
                             ""   ~'".   u     _   ~_""   ".~~A_~~_~                 __   ~A'"_~_




                     Medicare LOB* Percentage

                     Allowable Pension Cost
                    }_A___   ~_0<.~'_'       .' ____ ' ' ' ' __   'A_' A     ~,,~.~~._.
                                                                                                                                                           $1 145817                     $1,284832

     2008             Contributions                                                                             $22,450,000   $22,450,OOQ ..                       $0
    8,00%             Discount for Interest                                                                     ($1,622,387)  ($1,622,387)                         $0
Januaryl,2()()8     Pres,ent, Value Contributions .                                                             $20,827,6 \3  $20,827,613                          $0
                                                                                                                                                                    "~-'~~ ~-+


                      PrepaYl11entCredit Applied                                                                 $8,2iii3'3 1$6:961,782                    $1,260,351
                    . Present Value ofFunding                                                                   $29,049,746   $27,789,395                  $1,260,351

1anuaryl, 2()()8 . CJ\§F!lrl~il1g:raJ"get
                    Percentage Funded                                                                                                     100.00%         100.00%
                   'Funded Pension Cost                                                                                                $6,961,782      $1,260,351
                   ,Allowable Interest                                                                                                          $0             $0
                   ,Allocable Pension Cost                                                                                             $6,961, 782~IL260,351 n"1
    2008            Fiscal Year Pension Cost
                      . , ' . ' , , _ ' ••• , • • • • • • • • • • _ _ _ _              ••   A   •
                                                                                                                                       $6,8()6A7~'''~' $I,?33,550 !
                   ,Medicare LOB*Pc:r<:entage

                     Allowable Pension Cost                                                                                                                                              $1364560
                                                                                                                                                                        PageS of6




                                                                                        Total                        "Other"            Medicare              Total
              Date                                      Descri tion                   Company                        Segment            Se ment              Medicare

             2009                Contributions 	                                              $0                             $0                   "~O
            8.00%                Discount for Interest                                        $0                             $0                   $0 

        January I, 2009          Present Value Contributions                                  $0                             $0                  $0 

                               . Prepayment Credit Applied                            $8,552,141                     $7,397,272         $1,154,869 

                               . Pr~lie.!l.t'y~lJ.(!()fIlJl!~i!lS.          Ai,,,,,   $8,552,141               '     $7,397,272
                                                                                                                         ,_,
                                                                                      ''''~~AAA"'A'm''''AAAAA __ ~''i'''~~~   "'A""'"
                                                                                                                                        !1 , 1542~~2. .,,/
                                                                                                               I
        January . 1, 2009 	 CAS Funding Target.                               "$8,552,141                            $7,3~7,272         $1,154,869 

                            Percentage Funded                                                                           100.00%             100.00% 

                            Funded Pension Cost                                                                     .g)97,272           ~!1!s..4.8§9 . 

                            Allowable
                              - -." ..
                                       Interest
                                        ...
                                         "   ,,,   ,,
                                                                                                                             $0                  $0 

                            Allocable Pension Cost                                                                   $7,397,272         $1,154,869 

             2009           Fiscal Year Pension Cost                      141;                                       $9,137,718         $1,469,957 

                            Medicare le()B" P~r<:e!l~g~"                                                                  1.64%              96.85% 


                                Allowable Pension Cost 	                                                                 $149,859       $1,423653                 $1



        .. Line of business.


FOOTNOTES

 1L The allocable Cost Accounting Standards (CAS) pension cost is the amount of pension cost that may be allocated for contract cost purposes" We 

        obtained the 1996 calendar year allocable pension from our prior review (A-07-97-01211; issued September 8, 1997). 


 y.     We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The contributions included
        deposits made during the plan year and accrued contributions deposited after the end of the plan year but within the time allowed for filing tax returns.
        We determined the contributions allocated to the Medicare segment during the pension segmentation review (A-07-II-00349). The amounts shown for
        the "Other" segment represent the difference between the Total Company and the Medicare segment

 J!.    We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the contributions back
        to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference between the present value of
        contributions (at the valuation interest rate) and actual contribution amounts.

 1L The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the plan year.
 JL A prepayment credit represents the accumulated value of premature funding from the previous year(s).        A prepayment credit is created when 

        contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest, to fund future CAS 

        pension costs. 


 flf.   The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is available to 

        cover the CAS funding target measured at the first day of the plan year. 


 11 The CAS funding target must be funded by current or prepaid contributions to satisJY the funding requirement of the Federal Acquisition Regulation 

        (FAR) 31.205-6(j)(2Xi). 


 ~      The
         	  percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year. Because any funding in
        excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 4 I2.50(cX I ) (as amended), the funded ratio may not exceed
        100 percent. We computed the percentage funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the
        percentage of funding has been rounded to four decimals.

 2L     We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

101 	We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the interest on contributions
     bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(jX2Xiii), which does not permit the
     allowable interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal installments
     deposited within 30 days after the end of the quarter.

ill We converted the allocable pension costs to a fiscal year (FY) basis (October I through September 30). We calculated the FY pension costs as 1/4 of
        the prior year's costs plus 3/4 of the current year's costs.
                                                                                                                                                          Page 6 of6




12/ We calculated allowable pension costs of the Medicare and "Other" segments based on the Medicare line of business (LOB) percentage ofeach
    segment. We determined the Medicare LOB percentages based upon information provided by Blue Cross Blue Shield of Mississippi.

13/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB percentage. Pursuant to CAS 412 and 413,
    the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare segment's direct pension costs plus "Other"
    segment pension costs attributable to indirect Medicare operations.

Hi The 2009 Fiscal Year Pension Cost is calculated as 1/4 of the prior year's cost plus all of the current year's cost.   The 2009 Allocable Pension Cost is
    based on a January 1,2009, to September 30, 2009, cost.
                                 APPENDIX B: AUDITEE COMMENTS 





                                                                         wwW.trispqn.com

                                                                         P. O. Box 23046' ja,kson, M5 • 39225·3046
                                                                         1064 Flynt Drive • flowood, MS. 39232·9570




       July 18,2011


       patrick.l. Cogky
       Regional Inspector General For Audit Services
       Office of Audit Services, Region VII
       60 I East 12!h Street. Room 0429
       Kansas City, MO 64106

       Re: TriSpan Pension Ibwiew Response· A - 01-1 \ - OO!PSO

       Blue Cross & Blue Shield ofMississippi("BCnSMS") submits this Jetter in response to the findings
       identified in the U.S Department of Health & llllImm Services, om..:e of Inspector General (010).
       draft report titled Review n(Pension Cost Claims for Medicare ReimburStlment by Blue Cross Blue
       .';hield o/Mississippi/or Fiscal rears J9971hrough 2009,

       After further review, BCBSMS concurs with the OlG's Summary of Findings which states that
       BCBSMS "claimed pension costs of$12.581.R94 for Medicare reimbursement; however, we (OlG)
       dctennined that the allowable CAS p;!nsion costs were $12,063,659, a diffcl'cnccof$S18,235. "

       BCBSMS will make appropriate adjustments that reflect this reduction in claims p;!nsion costs in
       BCBSMS's tinal settlemcnt proposal that will be submitted in connection with the termination ofthc
       Tille xvm Medicare contract.

       Please keep us il1fomlCd of tiny revisions to the draft report.

       Sincerely,



       Jeffery T. Leber
       Hlue Cross Blue Shield of Mississippi
       Chicf FimmciaJ OfJicer




     CAIIS/
.,I!tMQIItW44DCW~   I
